Report No. D-2008-135         September 29, 2008




    Requiring Radio Frequency Identification
            in Contracts for Supplies
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DFARS                         Defense Federal Acquisition Regulation Supplement
DLA                           Defense Logistics Agency
DUSD(L&MR)                    Deputy Under Secretary of Defense (Logistics and
                               Materiel Readiness)
RFID                          Radio Frequency Identification
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                               and Logistics
                    Report No. D-2008-135 (Project No. D2008-D000AS-0022.000)
                                        September 29, 2008



               Results in Brief: Requiring Radio Frequency
               Identification in Contracts for Supplies
                                                            Department of the Navy; and the Deputy
What We Did                                                 Assistant Secretary for Contracting,
Our objective was to determine whether DoD                  Department of the Air Force—should
Components are complying with policies on                   establish responsibilities, develop metrics,
RFID. Specifically, we determined whether                   conduct reviews, and establish consequences
DoD Components implemented passive RFID.                    for contracting officers not complying with
We also assessed whether DoD contracts                      RFID requirements; issue policy requiring
include requirements for using passive RFID                 that contracting officers be formally trained
tags and whether suppliers are complying with               in RFID; and identify penalties for
those requirements. Although we announced                   noncompliant suppliers.
that we planned to assess active RFID tags, we
                                                        •   The Director, Defense Logistics Agency should
learned that the active RFID technology did not
                                                            improve depot operations through formal
apply to supply contracts. Active RFID is
                                                            training and reviews.
discussed in an earlier report.

What We Found                                           Client Comments and
The Defense Logistics Agency made progress              Our Response
implementing passive RFID in the DoD supply             The Assistant Secretary of the Army for
chain; however, additional work is needed. We           Acquisition, Logistics, and Technology did not
visited four DLA distribution depots and                comment on the draft report issued on August 1,
judgmentally sampled shipments from various             2008. The comments provided by the Deputy
suppliers. Based on our evaluation of contracts         Under Secretary of Defense (Logistics and
and on our sample, we found that:                       Materiel Readiness); the Defense Logistics
    • contracting officers awarded 23 of                Agency; and the Departments of the Navy and
        220 supply contracts (10 percent)               the Air Force were responsive, partially
        without the required RFID clause;               responsive, or nonresponsive to the
    • suppliers for 84 of 197 contracts                 recommendations. Please see the
        (43 percent) with the required clause did       recommendations table on the back of this page.
        not apply passive RFID tags to
                                                                                           Passive RFID
        shipments they sent to the depots;                  RFID Portals                        Tag
    • DLA is not apt to realize a near-term
        return on investment from passive RFID.
What We Recommend
•   The Director, Defense Logistics Agency and
    the Deputy Under Secretary of Defense
    (Logistics and Materiel Readiness)—in
    coordination with the Assistant Secretary of
    the Army for Acquisition, Logistics, and
    Technology; the Assistant Secretary                 Portals Scanning Goods With Passive RFID Tag
    (Research, Development and Acquisition),

                                                    i
               Report No. D-2008-135 (Project No. D2008-D000AS-0022.000)
                                   September 29, 2008

Recommendations Table
Client                            Recommendations                    No Additional Comments
                                  Requiring Comment                  Required
Deputy Under Secretary of         1.a.                               1.b.
Defense (Logistics and Materiel
Readiness)

Assistant Secretary of the Army   1.a., 1.b., 3.a., 3.b., and 3.c.
for Acquisition, Logistics, and
Technology

Director, Defense Logistics       1.a., 3.b., and 3.c.               1.b, 2.a., 2.b., and 3.a.
Agency
Assistant Secretary (Research,    1.a., 1.b, 3.a., 3.b., and 3.c.
Development and Acquisition),
Department of the Navy

Deputy Assistant Secretary for    3.b. and 3.c.                      1.a., 1.b., and 3.a.
Contracting, Department of the
Air Force


Please provide comments by October 29, 2008.




                                              ii
Table of Contents

Results in Brief                                                               i

Introduction                                                                   1

       Objectives                                                             1
       Background                                                             1

Finding. Use of Passive Radio Frequency Identification in the
          DoD Supply Chain                                                     3

       Recommendations, Client Comments, and Our Response                      8

Appendix

       A. Scope and Methodology                                               19
             Review of Internal Controls                                      20
             Prior Coverage                                                   20

Client Comments

       Deputy Under Secretary of Defense (Logistics and Materiel Readiness)   23
       Defense Logistics Agency                                               25
       Department of the Navy                                                 30
       Department of the Air Force                                            33
Introduction
This is the second in a series of reports on radio frequency identification (RFID). The
first report, DoD Inspector General Report No. D-2008-131, “Security of Radio
Frequency Identification Information,” September 19, 2008, discussed the security of
RFID information and the reuse of active RFID tags.

Objectives
The overall audit objective was to determine whether DoD Components are complying
with policies on RFID. Specifically, we determined whether DoD Components
implemented passive RFID. Additionally, we planned to assess whether DoD contracts
issued since January 1, 2005, include requirements for using passive and active RFID
tags and whether suppliers are complying with those requirements.

Although we announced that we planned to assess compliance with active RFID tag
requirements, we later learned, from DLA officials, that the active RFID technology did
not apply to supply contracts. Active RFID is discussed in DoD Inspector General
Report No. D-2008-131, mentioned above. Additionally, we originally planned to review
contracts for supplies issued since January 1, 2005; however, the RFID clause did not go
into effect until November 14, 2005, for the Susquehanna and San Joaquin depots and
May 19, 2006, for the Corpus Christi and San Diego depots. Therefore, we reviewed
contracts for supplies issued after those dates. See Appendix A for a discussion of the
scope and methodology, our review of internal controls, and prior coverage related to the
objectives.

Background
According to the DoD Suppliers’ Passive RFID Information Guide (the Suppliers’
Guide), September 2007, the DoD goal is to implement mature and emerging
technologies that will optimize the DoD supply chain. The Suppliers’ Guide states that
RFID will provide the warfighter with “automated visibility and asset management.”

DoD considers the implementation of RFID a strategic necessity to deliver supplies to the
warfighter more quickly and allow tracking of materiel throughout the supply chain. To
create an automated and sophisticated end-to-end supply chain, DoD must initiate RFID
technology at the point of origin, DoD commercial suppliers. Unless suppliers—as well
as contracting officers, depot commanders, and depot personnel—comply with RFID
policies, DoD cannot achieve a fully integrated, highly visible, automated end-to-end
supply chain.

Passive RFID
On July 30, 2004, the Acting Under Secretary of Defense for Acquisition, Technology
and Logistics (USD[AT&L]) issued a policy memorandum, “Radio Frequency
Identification (RFID) Policy,” requiring that DoD Components implement RFID
throughout DoD. The RFID policy required that contracting officers include the RFID
clause mandated by the Defense Federal Acquisition Regulation Supplement (DFARS) in


                                            1
contracts for supplies such as weapon system components, equipment, petroleum,
clothing, rations, medical material, and repair parts. The RFID clause requires that
suppliers sending shipments containing those supply items to Defense Logistics Agency
(DLA) depots and Air Mobility Command Terminals apply a passive RFID tag to the
case or pallet being sent. The passive RFID tag enables DLA depot personnel, using the
DLA shipping system, to automatically identify the contents of the shipment. DLA
provides worldwide logistics support for DoD and, according to DoD supply chain
experts, is the primary user of passive RFID in the DoD supply chain.

Defense Logistics Agency
According to DLA officials, DLA uses the Distribution Standard System (DLA shipping
system) to record, track, and issue supplies to the warfighter. As DLA officials explained,
the contracting officer is responsible for establishing the initial request in the DLA
shipping system for a supply item. The initial request provides important information
about a shipment that DLA depot personnel use to determine whether RFID is required
and, in turn, whether suppliers are meeting the terms of their contracts by applying
passive RFID tags to shipments.




                                            2
Finding. Use of Passive Radio Frequency
Identification in the DoD Supply Chain
DLA made progress implementing passive RFID in the DoD supply chain; however,
additional work is needed. We visited four DLA distribution depots and judgmentally
sampled supplies that suppliers shipped to the depots. Based on our evaluation of
contracts and on our sample, we found that contracting officers awarded 23 of 220 supply
contracts (10 percent) without the required RFID clause. Additionally, we found that
suppliers for 84 of 197 contracts (43 percent) with the required clause did not apply
passive RFID tags to shipments they sent to DLA depots. If RFID is not fully
implemented across DoD as intended, DLA will have spent $12.2 million on an
automated process that must be supplemented by manual input, surveillance, and
corrective measures. Additionally, suppliers’ willful noncompliance violates the DFARS
and minimizes the intended benefits of faster, more efficient shipment of supplies to the
warfighter. Therefore, it is unlikely that DLA will realize a near-term return on
investment from implementing passive RFID, either monetarily or in the form of faster,
more efficient shipments of supplies to the warfighter. To improve passive RFID
implementation, the Director, DLA and the Deputy Under Secretary of Defense
(Logistics and Materiel Readiness) (DUSD[L&MR]) should do the following.

    •   Establish responsibilities, develop measurable metrics, conduct quarterly
        reviews, and establish consequences for contracting officers and suppliers not
        complying with RFID requirements.

    •   Develop a training program for depot personnel that explains RFID technology
        and its intended benefits.

    •   Require that depot managers review, report, and resolve problems integrating
        passive RFID into depot operations and procedures.

RFID Policy
USD(AT&L) issued RFID policy requiring that DoD Components implement passive
RFID in the DoD supply chain. The RFID policy states that the RFID clause is required
in supply contracts issued after October 1, 2004, for delivery of materiel on or after
January 1, 2005. The RFID policy further states that contracts with DoD require that
passive RFID tags be applied to the case, pallet, and item packaging. The
DUSD(L&MR), who reports to the USD(AT&L), is responsible for advancing the
integration of the DoD supply chain and RFID implementation. The USD(AT&L)
updated the DFARS to mandate that contracting officers include an RFID clause in
supply contracts, thus requiring suppliers to apply passive RFID tags to shipments they
send DoD. Although DLA is the primary user of passive RFID and made considerable
efforts to implement it in the DoD supply chain, the Military Departments are also
required to follow RFID requirements.




                                            3
The USD(AT&L) issued two updates to the DFARS. The first, DFARS 252.211-7006,
“Radio Frequency Identification,” November 14, 2005, requires that contracting officers
awarding supply contracts for the Susquehanna and San Joaquin depots include the RFID
clause in supply contracts. On May 19, 2006, the USD(AT&L) issued a second, interim
DFARS rule requiring contracting officers for additional DLA depots (including, among
others, San Diego and Corpus Christi) to begin including the RFID clause in supply
contracts. The interim rule was effective in May 2006.

RFID Compliance
Supply contracts are used to purchase such items as weapon system components,
equipment, petroleum, clothing, rations, medical material, and repair parts. When the
contracting officer includes the RFID clause in a contract, it requires that suppliers apply
a passive RFID tag to each shipment they send to DoD. We visited four DLA
distribution depots—Susquehanna, San Joaquin, San Diego, and Corpus Christi—to
review compliance with the passive RFID requirements.

For the contracts we reviewed, 1 DLA and Navy contracting officers complied with
passive RFID requirements more often than Army contracting officers did. We reviewed
281 contracts that contracting officers issued to procure the 327 shipments we
judgmentally selected for our sample. See Appendix A for details about the scope and
methodology of our review. Of those 281 contracts reviewed, 220 either required or
should have required the RFID clause mandated by DFARS 252.211-7006. Of the
220 contracts, 23 supply contracts (10 percent) did not include the passive RFID clause.
Table 1 shows the number of contracts reviewed, contracts that should have required
passive RFID tagging, and contracts that did not include the clause in a supply contract.

     Table 1. Contracting Officers’ Compliance With Passive RFID Requirements
                                     Contracts    Contracts Without the Required
      DoD          Contracts         Requiring              RFID Clause
    Component           Reviewed            RFID Clause               Number                 Percent*
Army                          18                    9                     7                      78
Navy                          30                    17                    3                      18
Air Force                      1                     0                    0                       0
DLA                         232                   194                    13                       7
    Total                   281                   220                    23                     10
*
  The percentage of contracts without RFID requirements is based on the 220 contracts we reviewed that
required the RFID clause.




1
  We reviewed one Air Force contract; however, the contract did not require that the contracting officer
include RFID requirements because it was issued before the requirements went into effect.


                                                     4
Table 2 shows the number of contracts reviewed, contracts requiring a tag, and the
number of contracts for which suppliers did not comply with passive RFID requirements.
Of the 197 contracts containing the RFID clause, 84 of those contracts (43 percent) had
suppliers that did not comply with the terms of their contracts by applying a passive
RFID tag to the shipment.

      Table 2. Suppliers’ Compliance With Passive RFID Requirements
             Contracts                               Contracts With
  DoD        Requiring     Contracts With        Noncompliant Suppliers
Component RFID Clause       RFID Clause         Number           Percent*
Army                       9                       2                      2                     100
Navy                       17                    14                       4                      29
DLA                      194                   181                      78                       43
    Total                220                   197                      84                       43
*
 The percentage of contracts with suppliers not applying passive tags to shipments is based on the
197 contracts we reviewed that required the DFARS RFID clause.


DLA officials stated that, until they made changes to DLA business processes in
February 2008, 2 they were not able to readily identify those suppliers that were not
applying tags to required shipments. DLA officials stated that since they changed their
business processes, contracting officers can use the DLA Automated Best Value System,
among other contractual remedies, 3 to penalize suppliers not applying passive RFID tags
to shipments as required by their contracts. The Automated Best Value System is a past
performance system that provides the contracting officer with a numeric score on a
supplier’s performance history. DLA officials stated that a contracting officer can use the
Automated Best Value System as a tool to improve supplier compliance with RFID
requirements by reducing the supplier’s score in the system. A lower score in the system
reduces a supplier’s competitiveness for future DoD contracts.

For passive RFID implementation to succeed in the DoD supply chain, suppliers and
contracting officers from all Components must comply with RFID policy. Therefore, to
provide the emphasis needed to fully implement RFID in the DoD supply chain, DLA
officials should assign responsibilities, develop measurable metrics, conduct quarterly
reviews, and establish consequences for noncompliance. The DLA and the
DUSD(L&MR), in coordination with the Military Departments, should prescribe
penalties for suppliers that do not comply with RFID requirements and begin imposing
those penalties in the first quarter of FY 2010. Additionally, the Military Departments
and the DLA should hold contracting officers accountable when they do not comply with


2
  Further discussion of the changes DLA officials made to their business processes appears later in this
report.
3
  DLA officials stated that increased oversight of a supplier and including penalties in contracts for
noncompliant suppliers are other ways to improve RFID compliance.


                                                       5
Defense RFID policies, and appropriately reflect that performance in the contracting
officers’ performance ratings.

RFID Implementation
The DLA has made progress implementing passive RFID in the DoD supply chain. The
DLA has made changes to its business processes and updated the systems it uses to
contract for and accept supplies. According to DLA officials, the DLA spent
$12.2 million implementing passive RFID. However, RFID awareness and training are
still needed at the DLA depots.

Business Processes and Systems
To improve the implementation of passive RFID, DLA officials updated the automated
contract bidding system (bidding system) in January 2007, which contracting officers use
to generate supply contracts valued under $100,000. DLA officials stated that when
DLA contracting officers generate a contract, the bidding system now includes the RFID
clause in the list of mandatory clauses. DLA officials stated that by making the RFID
clause mandatory, DLA increased suppliers’ and contracting officers’ awareness of RFID
requirements. DLA officials also added the RFID clause to the list of mandatory clauses
that contracting officers use when they cannot use the bidding system and for contracts
over $100,000. DLA officials stated, however, that the update to the bidding system does
not provide them with the capability to determine whether suppliers intended to apply
RFID tags to shipments. Therefore, DLA officials required suppliers to indicate in the
bidding system whether or not they intend to comply with the RFID clause. DLA
officials explained that any supplier indicating it will not comply with RFID requirements
is excluded from the competition for the contract. DLA officials stated, however, that
DLA did not establish a verification process to determine the accuracy of the contractor’s
self-reporting.

DLA officials stated that, in February 2008, they updated the DLA shipping system to
readily identify suppliers not applying passive RFID tags to required shipments.
Specifically, DLA officials stated that the update enables contracting officers to indicate
in the system whether a passive RFID tag is required for the shipment. In turn, depot
personnel stated that the update enables them, at the time of their item acceptance
inspection, to send an automatic discrepancy report to the contracting officer, signaling
the supplier’s noncompliance. DLA officials stated that the contracting officer should
notify the supplier of the noncompliance and seek compensation.

DFARS 252.211-7006, “Radio Frequency Identification,” February 2007, requires that
suppliers electronically send DoD an advance shipping notice before they ship a supply
item. The DLA integrated this requirement into the passive RFID process. DLA officials
stated that the advance shipping notice provides depot personnel a description of each
shipment’s contents and its passive RFID tag number and links the tag number to the
initial request for material in the DLA shipping system.

Suppliers of the shipments we reviewed did not send DoD an advance shipping notice for
114 of 327 shipments (35 percent) of supplies they sent. DLA officials stated that


                                             6
without an advance shipping notice, depot personnel must manually acknowledge and
accept a supply item in the DLA shipping system, eliminating the efficiency of the
passive RFID technology in the DoD supply chain. Of the 327 shipments we sampled,
Table 3 shows the number for each Component whose suppliers did not send DoD an
advance shipping notice.

             Table 3. Supplier Compliance With Advance Shipping
                             Notice Requirements
                                       Shipments for Which Suppliers Did Not
        DoD          Shipments            Send an Advance Shipping Notice
    Component         Sampled              Number               Percent*
   Army                  24                   18                   75
   Navy                  46                   28                   61
   Air Force              1                    1                  100
   DLA                  256                   67                   26
       Total                    327                         114                           35
   *
    The percentage of suppliers that did not send DoD an advance shipping notice is based on the
   327 shipments we reviewed.


Without the advance shipping notice, the DoD supply chain will not fully benefit from
the use of passive RFID tags. DLA officials stated that this impediment is due, in part, to
depot personnel having to manually record receipt of shipments and manually send the
supplier an acknowledgment of receipt for the shipment. The advance shipping notice
would automate these manual functions. The manual receipt of shipments slows the
supply chain process and could reduce the accuracy of DLA shipping information.

RFID Awareness Among Depot Personnel
The DLA must implement a more effective and thorough awareness and training program
to emphasize the importance of passive RFID in the DoD supply chain. As part of the
DLA effort to implement passive RFID in the DoD supply chain, the DLA installed
passive RFID equipment, also known as “portals,” on the receiving doors at 19 DLA
distribution depots. The portals read the passive RFID tag attached to shipments entering
the depots and send that information to the DLA shipping system. While depot personnel
at the Susquehanna and San Joaquin depots were aware of the need to monitor passive
RFID information in the DLA shipping system to ensure that tags are being read,
personnel at the Corpus Christi and San Diego depots were not. For example, at the
Corpus Christi and San Diego depots, we found that the portals were not reading tags or
transferring passive RFID tag information to the DLA shipping system. A San Diego
analyst was not aware he had to review the passive RFID information in the DLA
shipping system to ensure the equipment was working. Depot personnel at Corpus
Christi and San Diego were not aware of the problems until we alerted them to the
situations.




                                                   7
Also, some depot personnel at Corpus Christi stated that they had never seen a passive
RFID tag and did not know the intent of the portals. If the passive RFID tag information
does not transmit to the DLA shipping system, depot personnel must manually record the
receipt and payment process, negating the benefit and reducing the efficiency of using
passive RFID tags. Further, at two of the four depots visited, depot officials stated that
they did not see any return on investment from using passive RFID. Lastly, at the Corpus
Christi depot, the depot commander allowed delivery trucks to drive into the warehouse.
The passive RFID portals cannot read the tags on shipments inside the trucks. Not only
did this practice impede RFID implementation, but it was also a security risk to depot
personnel and assets.

Although DLA officials made progress implementing passive RFID technology in the
DoD supply chain, additional changes are needed. Because DLA officials included
mechanisms in their business processes to monitor the compliance of suppliers and
contracting officers with RFID requirements, they must begin conducting formal reviews
of the information. The DUSD(L&MR), the DLA, and the Military Departments should
issue policy requiring that contracting officers take formal RFID training on the
procedures, use, and benefits of passive RFID implementation. Additionally, the
Commander, Defense Distribution Center, responsible for the oversight of the DLA
depots, should conduct formal training of depot personnel using and implementing
passive RFID and require that depot managers review, report, and resolve problems
integrating passive RFID into depot operations and procedures.

Conclusion
The goal of passive RFID implementation is to support the warfighter by optimizing the
efficiency of the DoD supply chain. The DLA has made progress implementing passive
RFID in the DoD supply chain and making business process changes. However,
noncompliance of suppliers and contracting officers with the RFID clause mandated by
DFARS slows the depots’ automation of the receiving process, delaying DoD’s return on
investment from the implementation of passive RFID. If RFID is not fully implemented
across DoD as intended, DLA will have spent $12.2 million on an automated process that
must be supplemented by manual input, surveillance, and corrective measures.
Additionally, suppliers’ willful noncompliance violates the DFARS mandate and
minimizes the intended benefits of faster, more efficient shipment of supplies to the
warfighter. As a result, the intent of passive RFID to support the warfighter by providing
an automated end-to-end supply chain is not fully achieved.

Recommendations, Client Comments, and
Our Response
1. We recommend that the Director, Defense Logistics Agency and the Deputy
Under Secretary of Defense (Logistics and Materiel Readiness), in coordination with
the Assistant Secretary of the Army for Acquisition, Logistics, and Technology; the
Assistant Secretary (Research, Development and Acquisition), Department of the
Navy; and the Deputy Assistant Secretary for Contracting, Department of the
Air Force:


                                            8
        a. Develop measurable metrics, conduct quarterly reviews, and establish
consequences for contracting officers not complying with radio frequency
identification requirements.

DUSD(L&MR) Comments
The Assistant Deputy Under Secretary of Defense for Logistics, Plans and Studies
commenting for the Under Secretary of Defense (Acquisition, Technology and Logistics)
partially agreed. He stated that the Services should continue to work with contracting
officers to emphasize the importance of applying the RFID clause for DoD to realize the
benefits of RFID. The Assistant Deputy stated that a system-generated check for
appropriate contracting clauses is not possible and conducting manual reviews quarterly
would be a burden. However, the Assistant Deputy said that compliance with RFID
requirements should be a part of the Services and DLA contracting and review process to
ensure that contracting officers apply the clause appropriately. Lastly, the Assistant
Deputy said that consequences for not complying with RFID requirements should be the
same as those for failing to comply with other contractual requirements.

Our Response
The Assistant Deputy Under Secretary of Defense comments were partially responsive.
If quarterly reviews and system-generated checks are not feasible, we request that the
Assistant Deputy Secretary provide comments on the final report indicating how often
reviews should be performed. Further, we request that he indicate the types of metrics
that would be appropriate for measuring RFID compliance.

Army Comments
The Assistant Secretary of the Army for Acquisition, Logistics, and Technology did not
provide comments on the draft report issued on August 1, 2008.

Our Response
We request that the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology provide comments on the final report by October 29, 2008.

DLA Comments
The DLA Director of Acquisition Management agreed. She stated that DLA has made
contracting officer compliance with passive RFID policies part of DLA’s review
processes and procedures. The Director also stated that reviews conducted by DLA
include in-process contract reviews, internal and external procurement management
reviews, and contracting quality management plans. Additionally, the Director stated that
contracting officers and their managers receive feedback from the reviews, highlighting
contracting officers’ performance. She stated that corrective actions are initiated as
appropriate and may include employee counseling, additional training, or negative
performance appraisals.

Further, the Director stated that DLA has taken measures to ensure that contracting
officers comply with the passive RFID requirements and that the measures have


                                            9
increased awareness of passive RFID requirements among contracting officers and
suppliers. Specifically, the Director said that in December 2006 DLA reprogrammed its
automated procurement systems to automatically include the RFID clause in solicitations
and awards. The Director also stated that DLA revised its automated quote form by
requiring suppliers to indicate whether they planned to comply with passive RFID.

Our Response
The DLA Director of Acquisition Management comments were partially responsive. We
request that the Director provide comments on the final report indicating how often DLA
conducts the in-process contract reviews, internal and external procurement management
reviews, and contract quality management plans. We also request that the Director
indicate whether the processes and procedures established for complying with passive
RFID requirements are formally documented in DLA policies.

Navy Comments
The Director, Program Analysis and Business Transformation, commenting for the
Assistant Secretary of the Navy (Research, Development and Acquisition), partially
agreed. He stated that the Navy is working with the other Services to develop metrics
that will measure the effects of passive RFID implementation on the logistics system.
The Director stated that one of the metrics would monitor DoD’s effectiveness in writing
contracts that contain the RFID clause. The Director stated, however, that quarterly
reviews would impose an administrative burden considering that the reviews would be
done manually and the audit report did not conclude that a systemic problem exists. The
Director stated that less frequent reviews would be more appropriate. In addition, the
Director stated that, instead of establishing consequences for contracting officers not
complying with RFID requirements, the contracting activities should emphasize the
importance of the clause and request that contracting officers be diligent in complying
with RFID requirements.

Our Response
The comments from the Director, Program Analysis and Business Transformation were
partially responsive. Although the Director stated that less frequent reviews would be
more appropriate for monitoring contracting officers’ compliance with RFID, the
Director did not propose an alternative time frame to conduct such reviews.
Additionally, the Director did not provide a completion date for the development of
metrics the Navy will use to measure passive RFID implementation. Lastly, the Director
did not explain how contracting activities plan to emphasize the importance of the RFID
clause to contracting officers to ensure compliance with RFID requirements.

We request that the Director provide comments on the final report describing the
frequency of reviews that would be more appropriate for ensuring RFID compliance. We
also request that the Director indicate a completion date for the RFID implementation
metrics and, once complete, provide us with a copy. Lastly, we request that the Director
indicate how the contracting activities will ensure contracting officers are diligent in
complying with RFID requirements and what measures they plan to take to emphasize
the importance of the clause.


                                           10
Air Force Comments
The Deputy Assistant Secretary for Contracting agreed. He stated that the Air Force will
work with DLA and DUSD(L&MR) to support the development of actions to ensure
compliance with RFID policies.

Our Response
The comments from the Deputy Assistant Secretary were responsive, and no further
comments are required.

       b. Issue policy requiring that contracting officers take formal training that
includes procedures for applying passive radio frequency identification tags to
shipments and highlights the use and benefits of radio frequency identification in
the DoD supply chain.

DUSD(L&MR) Comments
The Assistant Deputy Under Secretary of Defense for Logistics, Plans and Studies
commenting for the Under Secretary of Defense (Acquisition, Technology and Logistics)
agreed. He stated that the Defense Acquisition University offers an RFID training class
for contracting officers. The Assistant Deputy Under Secretary stated that the training
instructs contracting officers on how to properly apply the passive RFID clause and
highlights the contracting officers’ role in enabling DoD to realize the benefits of RFID.
Additionally, the Assistant Deputy Under Secretary stated that the Office of the Secretary
of Defense, the Services, and DLA should reemphasize the importance of the training to
its contracting officers.

Our Response
The Assistant Deputy Under Secretary’s comments were responsive, and no further
comments are required.

Army Comments
The Assistant Secretary of the Army for Acquisition, Logistics, and Technology did not
provide comments on the draft report issued on August 1, 2008.

Our Response
We request that the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology provide comments on the final report by October 29, 2008.

DLA Comments
The DLA Director of Acquisition Management agreed. She stated that by September 15,
2008, she will implement an on-line RFID learning module with the Defense Acquisition
University. The Director stated that the RFID module will be mandatory for the DLA
contracting workforce.




                                           11
Our Response
The DLA comments were responsive, and no further comments are required.

Navy Comments
The Director, Program Analysis and Business Transformation, commenting for the
Assistant Secretary (Research, Development and Acquisition), disagreed. He stated that
the Defense Acquisition University continuous learning module offers training for
contracting officers. According to the Director, the training provides contracting officers
with the knowledge they need to properly insert the passive RFID DFARS clause in
contracts. The Director stated that the training also covers the RFID technology and
implementation strategies and stresses the contracting officer’s role in realizing the
benefits of RFID in the DoD supply chain.

Our Response
The Director’s comments were nonresponsive. The Director did not state whether the
Navy requires that contracting officers complete the training offered through the Defense
Acquisition University or how the contracting activities monitor when the contracting
officers complete the training. We request that the Director provide comments on the
final report indicating how the contracting activities monitor when the contracting
officers take the training.

Further, the intent of the recommendation was to have the Navy work with DLA and
DUSD(LM&R) to issue policy that would require formal training on passive RFID
requirements. The Director did not indicate whether he would work with DLA and
DUSD(L&MR) to issue policy requiring contracting officers to complete formal training
on procedures for applying passive RFID tags and highlighting the use and benefits of
RFID in the DoD supply chain. Therefore, we request that the Director provide
comments indicating whether he will work with DLA and DUSD(L&MR) on issuing
formal training requirements.

Air Force Comments
The Deputy Assistant Secretary of the Air Force for Contracting agreed. He stated that
the Air Force will work with DLA and DUSD(L&MR), as required, to support the
development of actions to ensure compliance with RFID policies.

Our Response
The Deputy Assistant Secretary’s comments were responsive, and no further comments
are required.

2. We recommend that the Director, Defense Logistics Agency require that the
Commander, Defense Distribution Center:

       a. Conduct formal training for depot personnel using and implementing
passive radio frequency identification.




                                            12
Client Comments
The Executive Deputy Director for Materiel Policy, Process and Assessment, commenting
for the Director, DLA agreed. She stated that RFID systems training is conducted with
information technology support personnel and that training enhancements are planned
when the RFID technology is included in DLA distribution operations.

Our Response
The Executive Deputy Director’s comments were responsive, and no further comments are
required.

       b. Require that depot managers review, report, and resolve problems
integrating passive radio frequency identification into depot operations and
procedures.

Client Comments
The Executive Deputy Director for Materiel Policy, Process and Assessment, commenting
for the Director, DLA agreed. She stated that the DLA integration of passive RFID is in
process. The Executive Deputy Director stated that the initial implementation of passive
RFID requires systems monitoring and resolution by the information technology staff. The
Executive Deputy Director stated that DLA plans to enhance and improve depot operations
and increase management awareness, enabling managers to report and resolve issues.

Our Response
The Executive Deputy Director’s comments were responsive, and no further comments are
required.

3. We recommend that the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology; Deputy Director, Automatic Identification Technology,
Department of the Navy; the Chief, Policy and Implementation Division,
Department of the Air Force; and the Director, Defense Logistics Agency:

       a. Conduct formal reviews of suppliers to identify those not complying with
passive radio frequency identification requirements.

Army Comments
The Assistant Secretary of the Army for Acquisition, Logistics, and Technology did not
provide comments on the draft report issued on August 1, 2008.

Our Response
We request that the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology provide comments on the final report by October 29, 2008.

DLA Comments
The DLA Director for Acquisition Management agreed. She stated that DLA has taken
action to ensure that noncompliant suppliers are subject to the full range of contract


                                           13
enforcement procedures. The Director stated that DLA implemented system changes in
February 2008 that enabled the Defense Distribution Center to identify shipments that
require passive RFID tags. The Director stated that the Defense Distribution Center uses
the supply discrepancy report to provide notice of noncompliance to the buyer for
resolution. The contractor’s past performance record reflects verified nonconformance,
making the contractor less competitive or ineligible for future awards.

Our Response
The DLA Director for Acquisition Management comments were responsive, and no
further comments are required.

Navy Comments
The Director, Program Analysis and Business Transformation, commenting for the
Assistant Secretary of the Navy (Research, Development and Acquisition) disagreed. He
stated that processes are already in place to track and monitor supplier compliance with
passive RFID requirements. The Director said that the receiving activities are
responsible for preparing and transmitting a discrepancy report to the ordering activity
when any contractual requirement is not met, including RFID requirements.

Our Response
The Director’s comments were partially responsive. While we recognize the usefulness
of the discrepancy report, the report is only a step in the monitoring process. The
Director did not indicate, however, how contracting officers use the discrepancy reports
as part of a formal process to identify trends and patterns of those suppliers not
complying with RFID requirements. Further, the Director did not describe the processes
the Navy uses to monitor supplier compliance. We request that the Director comment on
the final report explaining how contracting officers use the discrepancy reports during
formal process reviews to identify compliance with passive RFID requirements. We also
request that the Director describe the formal processes used to monitor supplier
compliance.

Air Force Comments
The Deputy Assistant Secretary of the Air Force for Contracting agreed. He stated that
the Air Force plans to participate with DLA and DUSD(L&MR) in the development of
metrics and the quarterly review process for RFID. Once DLA and DUSD(L&MR)
establish the review process and metrics, the Deputy Assistant Secretary stated that the
Air Force will determine how they will be implemented throughout the Air Force. The
Deputy Assistant Secretary also noted that the audit did not identify any noncompliant
Air Force contractors.

Our Response
The Deputy Assistant Secretary’s comments were responsive, and no further comments
are required.




                                            14
        b. Identify penalties for suppliers that do not comply with radio frequency
identification requirements and begin imposing those penalties in supply contracts
beginning the first quarter of FY 2010.

Army Comments
The Assistant Secretary of the Army for Acquisition, Logistics, and Technology did not
provide comments on the draft report issued on August 1, 2008.

Our Response
We request that the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology provide comments on the final report by October 29, 2008.

DLA Comments
The DLA Director of Acquisition Management agreed. She stated that the buyer pursues
appropriate contractual remedies, which can include correction or replacement of
nonconforming items or reimbursement from the contractor. The Director stated that
when DLA suspects that a contractor is committing fraud, DLA may recommend the
contractor be suspended, debarred, or referred for potential criminal or civil action.

Our Response
The DLA Director of Acquisition Management comments were partially responsive. The
Director did not discuss whether DLA planned to impose penalties for noncompliance
with RFID requirements in the first quarter of FY 2010. Therefore, we request that the
Director comment on the final report on her actions to impose penalties on suppliers not
complying with RFID requirements.

Navy Comments
The Director, Program Analysis and Business Transformation, commenting for the
Assistant Secretary of the Navy (Research, Development and Acquisition), disagreed. He
stated that current processes compensate the Government when a supplier does not
comply with contractual requirements.

Our Response
The Director’s comments were nonresponsive. The Director did not indicate the
penalties the Navy imposes on suppliers that do not comply with RFID requirements.
We request that the Director comment on the final report, identifying the penalties for
suppliers that do not comply with passive RFID requirements and how the Navy enforces
the penalties.

Air Force Comments
The Deputy Assistant Secretary of the Air Force for Contracting agreed. He stated that
DFARS 252.211-7006 does not provide specific remedies for RFID noncompliance. The
Deputy Assistant Secretary stated that FAR Part 49 contains procedures for contractor
noncompliance and recommended that we work with the Defense Procurement




                                           15
Acquisition Policy Office to revise the DFARS to establish a specific remedy for
noncompliance with passive RFID.

Our Response
The Deputy Assistant Secretary’s comments were nonresponsive. FAR Part 49
establishes policy for the termination of contracts, not for remedies of supplier
nonconformance. The Deputy Assistant Secretary did not indicate the penalties that will
be imposed on a supplier not complying with RFID requirements. Therefore, we request
that the Deputy Assistant Secretary work with DLA and DUSD(L&MR) to establish,
then impose, penalties in supply contracts for noncompliant suppliers by the first quarter
of FY 2010. We request that the Deputy Assistant Secretary provide comments on the
final report indicating whether he will work with DLA and DUSD(L&MR) on
establishing and imposing penalties for suppliers not complying with passive RFID
requirements.

      c. Include poor performance in contracting officers’ performance ratings
when they do not comply with DoD RFID policies.

Army Comments
The Assistant Secretary of the Army for Acquisition, Logistics, and Technology did not
provide comments on the draft report issued on August 1, 2008.

Our Response
We request that the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology provide comments on the final report by October 29, 2008.

DLA Comments
The DLA Director of Acquisition Management agreed. She stated that DLA has made
contracting officer compliance with passive RFID policies part of DLA’s review
processes and procedures. The Director also stated that reviews conducted by DLA
include in-process contract reviews, internal and external procurement management
reviews, and contracting quality management plans. Additionally, the Director stated that
contracting officers and their managers receive feedback from the reviews, highlighting
contracting officers’ performance. Lastly, the Director stated that corrective actions are
initiated as appropriate and may include employee counseling, additional training, or
negative performance appraisals.

Our Response
The DLA Director of Acquisition Management’s comments were partially responsive.
The Director did not indicate whether poor performance would be included in contracting
officers’ performance ratings when they do not comply with RFID policies. Therefore,
we request that the Director provide comments on the final report indicating whether
poor performance will be included in contracting officers’ ratings.




                                            16
Navy Comments
The Director, Program Analysis and Business Transformation, commenting for the
Assistant Secretary (Research, Development and Acquisition), disagreed. He stated that
instead of establishing consequences for noncompliant contracting officers, the
contracting activities should emphasize the importance of including the clause, when
required, and request that contracting officers be diligent in complying with the RFID
regulatory requirements.

Our Response
The Director’s comments were nonresponsive. To hold contracting officers accountable
for not complying with DoD policy, managers should factor poor performance into
contracting officers’ performance ratings. Therefore, we request that the Director
provide comments on the final report indicating how the contracting activities will deal
with contracting officers who do not comply with RFID policies.

Air Force Comments
The Deputy Assistant Secretary of the Air Force for Contracting disagreed. He stated
that the purpose of the annual performance reports is to provide a reliable, cumulative
record of performance and potential. The Deputy Assistant Secretary stated that reports
assist promotion boards and other personnel managers with promotions. The Deputy
Assistant Secretary stated that it is not appropriate to judge performance solely on
compliance with RFID because the RFID clause is only one of the required terms that
contracting officers place in contracts. The Deputy Assistant Secretary also stated that
the audit found no fault with the Air Force contracting officer’s compliance with RFID
policies. However, the Deputy Assistant Secretary stated that he plans to include the
RFID requirement on the Air Force compliance checklist for contracting officers.

Our Response
The Deputy Assistant Secretary’s comments were nonresponsive. While we recognize
that the RFID clause is only one of many contractual terms contracting officers are
required to include, the Deputy Assistant Secretary did not state how the Air Force
documents the contracting officer’s noncompliance with passive RFID requirements. We
request that the Deputy Assistant Secretary provide comments on the final report
explaining what actions the Air Force will take to deal with contracting officer
noncompliance with passive RFID requirements.




                                           17
Appendix A. Scope and Methodology
We conducted this performance audit from October 2007 through August 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We visited four DLA distribution depots—Susquehanna, Pennsylvania; San Joaquin,
California; San Diego, California; and Corpus Christi, Texas—from December 2007 to
January 2008 to obtain a judgmental sample of supplies that suppliers shipped to DLA
depots. We visited the Susquehanna and San Joaquin depots because they receive the
largest amount of supplies and were the first depots required to use passive RFID. We
visited the San Diego and Corpus Christi depots because they were collocated with a
Navy and an Army depot, respectively. During our visits, we observed the DLA
receiving process for supply items and judgmentally selected items being shipped to the
depots. We obtained the contract and national stock numbers and the passive RFID tag
number, if applied, from 327 shipments sent by suppliers to the depots on the days of our
visit. We could not determine the total shipments processed at those four depots on the
days we visited.

We used the information taken from the shipments to identify the contract used to
procure it. We used the shipping information and the corresponding contract to
determine whether the contracting officer included the RFID clause in required contracts.
In turn, we determined whether the supplier applied a passive tag to the shipment in
accordance with the terms of the contract. The 327 shipments corresponded to
281 contracts, of which 220 contracts required the RFID clause. Specifically, we
reviewed:

   •   supply contracts to identify the supplier and type of supplies purchased, and to
       determine whether contracting officers included the RFID clause in contracts
       issued after November 14, 2005, for Susquehanna and San Joaquin and after
       May 19, 2006, for San Diego and Corpus Christi;

   •   passive RFID tag numbers, in conjunction with the contract, to determine whether
       the suppliers applied passive tags to required shipments; and

   •   contract and national stock numbers to obtain shipping reports from the DLA
       shipping system to determine whether the supplier sent DoD an advance shipping
       notice and whether the contracting officer recorded the initial request in the
       system.

We also reviewed RFID implementation plans developed by the Military Departments
and DLA. We compared the documents with the requirements in the RFID policy,
DFARS clauses 252.246-7000 and 252.211-7006, and DFARS section 211.275. We


                                           19
interviewed RFID and contracting officials from the DUSD(L&MR) Office of Supply
Chain Integration and DLA. We also interviewed DLA depot commanders or their
deputies, along with depot analysts and receivers.

Review of Internal Controls
We determined that an internal control weakness in the implementation of passive RFID
existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. We visited four DLA distribution depots and
judgmentally sampled supplies that suppliers shipped to the depots. Based on our sample,
we determined that contracting officers awarded 10 percent of supply contracts without the
required RFID clause, and suppliers for 43 percent of the contracts did not apply passive
RFID tags to shipments they sent to DLA depots. For more specific results of the
weakness, see the Finding section of the report. Implementing Recommendations 1.
through 3. will improve controls. We will provide a copy of this report to the senior
officials responsible for internal controls at USD(AT&L) and DLA.

Use of Computer-Processed Data
To achieve the audit objectives, we relied on computer-processed data from the
Distribution Standard System (the DLA shipping system). We did not perform a formal
reliability assessment of the computer-processed data. However, we reduced our audit
risk to an acceptable level by manually comparing information we copied from the
shipments entering the warehouse on the days we visited with the reports in the DLA
shipping system for those shipments. We believe that those steps were adequate to
support the findings and conclusions made in this report.

Prior Coverage
During the last 5 years, the DoD Inspector General (IG), the Government Accountability
Office (GAO), and the Department of the Army issued four reports discussing passive
RFID. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov.

DoD IG
DoD IG Report No. D-2008-131, “Security of Radio Frequency Identification
Information,” September 19, 2008

GAO
GAO Report No. GAO-07-807, “Efforts to Improve Distribution and Supply for Joint
Military Operations Could Benefit from a Coordinated Management Approach,”
June 2007

GAO Report No. GAO-05-345, “Better Strategic Planning Can Help Ensure DOD’s
Successful Implementation of Passive Radio Frequency Identification,” September 2005




                                           20
Army
A-2003-0192-AML, “Development and Integration of Automatic Identification
Technology Into Logistics Processes,” March 12, 2003




                                        21
22
Deputy Under Secretary of Defense (Logistics and Materiel
Readiness) Comments




                    Click to add JPEG file




                                   23
Click to add JPEG file




               24
Defense Logistics Agency Comments




                  Click to add JPEG file




                                 25
Click to add JPEG file




               26
Click to add JPEG file




               27
Click to add JPEG file




               28
Click to add JPEG file




               29
Department of the Navy Comments




                  Click to add JPEG file




                                 30
Click to add JPEG file




               31
Click to add JPEG file




               32
Department of the Air Force Comments




                  Click to add JPEG file




                                 33
Click to add JPEG file




               34
Click to add JPEG file




               35
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Jacqueline L. Wicecarver
Karen J. Goff
Brian S. Benner
Cory M. James
La’Toya Holt
Rafael J. Munoz
Allison E. Tarmann
